<html>
<title> - 2020 CENSUS: CHALLENGES FACING THE BUREAU FOR A MODERN, COST-EFFECTIVE SURVEY</title>
<body><pre>[Senate Hearing 114-436]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-436

2020 CENSUS: CHALLENGES FACING THE BUREAU FOR A MODERN, COST	EFFECTIVE 
                                 SURVEY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             APRIL 20, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
        
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
        
        
        
        
        

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-905 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                       Courtney J. Allen, Counsel
              Gabrielle A. Batkin. Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
     Troy H. Cribb, Minority Chief Counsel for Governmental Affairs
        Deirdre G. Armstrong, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Carper...............................................    10
    Senator Ayotte...............................................    12
    Senator Peters...............................................    15
Prepared statements:
    Senator Johnson..............................................    33
    Senator Carper...............................................    35
    Senator Lankford.............................................    37

                               WITNESSES
                         Monday, April 20, 2015

Hon. John H. Thompson, Director, U.S. Census Bureau, U.S. 
  Department of Commerce.........................................     3
Robert Goldenkoff, Director of Strategic Issues, U.S. Government 
  Accountability Office..........................................     6
Carol R. Cha, Director of Information Technology Acquisition 
  Management Issues, U.S. Government Accountability Office.......     8

                     Alphabetical List of Witnesses

Cha, Carol R.:
    Testimony....................................................     8
    Joint prepared statement.....................................    45
Goldenkoff, Robert:
    Testimony....................................................     6
    Joint prepared statement.....................................    45
Thompson, Hon. John H.:
    Testimony....................................................     3
    Prepared statement...........................................    38

                                APPENDIX

Response to post-hearing questions submitted by Mr. Thompson.....    65
 
                   2020 CENSUS: CHALLENGES FACING THE
               BUREAU FOR A MODERN, COST-EFFECTIVE SURVEY

                              ----------                              


                         MONDAY, APRIL 20, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:01 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. James 
Lankford, presiding.
    Present: Senators Johnson, Lankford, Ayotte, Carper, 
McCaskill, and Peters.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. This hearing will come to order. I wanted 
to do an opening statement, and then Senator Carper is on his 
way. Senator Johnson is also on his way, and so as they slip 
in, we will recognize them at the appropriate time as well. I 
want to have this Committee come to order so we can begin this 
process on time today.
    I would like to welcome everyone to this afternoon's 
hearing on the ``2020 Census: Challenges Facing the Bureau for 
a Modern, Cost-Effective Survey.'' I will begin by recognizing 
myself for this opening statement.
    Director Thompson, let me first say to you on behalf of the 
Committee, we would like to express all of our condolences on 
the loss of Lawrence Buckner. We lost him in the line of duty 
on April 9 in Census Bureau headquarters in Suitland, Maryland. 
Know that our thoughts and prayers are with you and the agency 
as you all walk through this time together. It was a senseless 
act of violence, and we will all walk through it together with 
his family.
    The United States Constitution mandates that an actual 
enumeration be made within 3 years after the first meeting of 
the Congress of the United States and every subsequent 10 
years.
    As the 2020 decennial census approaches, I appreciate the 
fact that the Census Bureau is actually taking steps to prepare 
since, as we have seen in the past, a failure to do so can 
drastically increase costs for the Federal Government and 
ultimately the taxpayers. It is laudable that the Bureau is 
working toward implementation of an innovation strategy with 
the goal of saving the taxpayers' money.
    However, as the Government Accountability Office (GAO), has 
noted, although progress has been made since 2010, more work is 
needed to ensure that technology systems are fully operational 
and information remains secure and confidential.
    While it is important that we have information regarding 
the makeup of this Nation, it is also important that we 
safeguard the privacy of the American people. Questions asked 
of citizens of this Nation must be cost-effective and should 
not be overly intrusive. When the questions go too far and 
exceed what we should ask from the U.S. Government, it is 
invasive and fuels an environment of distrust.
    It is important that we examine not just the preparation 
for the 2020 Census itself, but also the manner in which the 
Census and other surveys, like the American Community Survey 
(ACS), are being conducted, as well the substantive nature of 
the questions asked. I look forward to the testimony, and I 
will acknowledge the Ranking Member Senator Carper for his 
opening statement when he arrives as well.
    Let me introduce the witnesses. Then I am going to swear 
the witnesses in as we go from here.
    John Thompson is the Director of the Census Bureau. Before 
his appointment as Director, Mr. Thompson was the President and 
Chief Executive Officer (CEO) of the National Opinion Research 
Center (NORC). Thanks again for being here.
    Robert Goldenkoff is the Director of Strategic Issues at 
the GAO. Mr. Goldenkoff leads reviews of the governmentwide 
civil service reforms and ways of improving the cost-
effectiveness of the Federal statistical system.
    Carol Cha is the Director of Information Technology 
Acquisition Management Issues at the Government Accountability 
Office. Before joining GAO, Ms. Cha led numerous reviews of 
information technology (IT) systems at Federal agencies, 
including the Departments of Commerce, Defense (DOD), and 
Homeland Security (DHS).
    Thank you, all three of you, for being here, and thanks for 
your testimony, both your written testimony and the oral 
testimony that you are about to begin as well.
    I would like to ask unanimous consent that Senator 
Johnson's statement be included in the record.\1\ Without 
objection, so ordered.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 33.
---------------------------------------------------------------------------
    It is the tradition of this Committee that we swear in all 
witnesses, so would you please rise and raise your right hand? 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Thompson. I do.
    Mr. Goldenkoff. I do.
    Ms. Cha. I do.
    Senator Lankford. Thank you. You may be seated.
    Let the record reflect that the witnesses have answered in 
the affirmative.
    I will ask that each of you will give your testimony. You 
have plenty of time to be able to do that. We are glad that you 
came and you came well prepared on that. When Senator Carper 
comes, I will recognize him for an opening statement. That may 
be in between one of you, but I will not interrupt you in the 
middle of your statement if he comes in during that time.
    Mr. Thompson, you are first. Thank you. We would be glad to 
receive your testimony now.

 TESTIMONY OF HON. JOHN H. THOMPSON,\1\ DIRECTOR, U.S. CENSUS 
              BUREAU, U.S. DEPARTMENT OF COMMERCE

    Mr. Thompson. Thank you, Senator Lankford. I would also 
like to thank Chairman Johnson and Ranking Member Carper and 
the Committee for allowing me this opportunity to testify on 
our preparations for the 2020 Census.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Thompson appears in the Appendix 
on page 38.
---------------------------------------------------------------------------
    Before I testify, however, I would like to take a moment to 
honor a true hero, Officer Lawrence Buckner, who lost his life 
protecting all of us at the U.S. Census Bureau. We are 
profoundly saddened by the loss of Officer Buckner. No one can 
ever measure the loss to his family. But our hearts are full, 
and the Census Bureau extends its deepest sympathy to his wife, 
Linda, his son, Lawrence, and his family. Thank you, and we 
mourn this tragic loss.
    I will now proceed with my testimony. The Census Bureau is 
fundamentally changing the way we will conduct the decennial 
census, which is the largest civilian mobilization in the 
United States. These efforts began earlier this decade by 
establishing a goal to design and conduct the 2020 Census to 
cost less per housing unit than the 2010 Census, while 
maintaining the highest levels of quality.
    The Census Bureau then identified the major cost drivers, 
and with the Congress' support, we began researching and 
testing major innovations oriented around technology and the 
strategic use of information to rein in these cost drivers.
    Today I will describe our work in four key innovation areas 
that will lead to the reengineered 2020 Census. We believe that 
investing now in these four key innovation areas can yield up 
to $5 billion in savings relative to repeating the 2010 Census 
in 2020. The tests we conducted in 2013 and 2014 and the four 
tests we are conducting this year are informing the 2020 Census 
design decisions, which we will deliver later this year. I will 
discuss how these tests informed our planning and how the next 
2 years position us for the critical end-to-end test in 2018. 
The alternative is repeating the 2010 Census, which would 
forfeit the savings of $5 billion.
    There are four key areas of innovation and potential 
savings:
    First, better address validation. By using the U.S. Postal 
Service (USPS) and other information sources, including aerial 
imagery, we plan to avoid walking every street in the Nation to 
validate the address list. We can save $1 billion through these 
efforts.
    Second, better response options. By making responding to 
the Census more convenient through the Internet, phone, or by 
mail, we can potentially save approximately $550 million.
    Third, better use of existing information. By using 
existing government and commercial information to reduce the 
need to follow-up with non-responding housing units, we can 
potentially save $1.2 billion.
    Fourth, better field operations. By using technology to 
manage and track cases, as well as to route the Census takers 
who will be using smartphones and tablets rather than pencil 
and paper, we can potentially save $2.3 billion.
    As I noted above, the total savings we expect from these 
four areas of innovation is $5 billion. I will now discuss each 
of these innovation areas in more detail.
    The foundation of an accurate Census is an accurate address 
list, which includes both the address and the geospatial 
location. Over the past few years, there have been tremendous 
technological advances in the geospatial field. More and more 
data become available, meaning that we no longer have to 
validate every address by a personal visit. We are now 
examining how to refine our procedures to integrate private 
sector data and services to update our geospatial assets. 
Specifically, we want to purchase address, road, and satellite 
imagery instead of physically walking the entire United States.
    This year's Address Validation Test encompasses two 
components that will also bring insights into how we can build 
a better address frame. The first component is to assess the 
ability of statistical models to predict change, such as new 
roads, new housing units, or other changes. The second 
component will provide measures of the current accuracy of our 
address list and our geospatial database.
    The second area of innovation is developing better response 
options. We are moving away from relying solely on the mailed 
questionnaire and enumerator to count every household. We are 
expanding options for people to self-respond by the Internet, 
at home or on a mobile device remotely, as well as by 
telephone. However, it is important to note that paper will 
continue to be an option.
    We want to make the Census as mobile and convenient as 
possible. This means allowing respondents to answer the Census 
without entering a Census ID. In fact, we anticipate that by 
promoting the Internet option, there will be a dramatic 
increase in the number of these responses in 2020. For this to 
work, we must validate these responses quickly in real time.
    The third area of innovation is better use of existing 
information. The increased use of administrative records from 
other Federal and State government agencies and third-party 
commercial data can reduce costs. The use of administrative 
records is not new to the decennial census, and we want to 
expand our use of these data for the 2020 Census. We are 
exploring several options, and two of the most promising are 
using those data to help manage and even reduce the field 
workload.
    The two most significant areas of innovation and cost 
savings are removing vacant units and using existing 
information on persons to enumerate occupied housing units, 
thereby removing them from the non-response follow-up 
operations.
    For example, during the 2010 Census, the field workload 
included 50 million housing units. Each housing unit received 
at least one in-person visit. Of these, 19 million were either 
vacant or no longer existed. By using administrative data from 
the Postal Service and other agencies, we believe we can 
identify these vacant and non-existent housing units and remove 
them from the in-person follow-up workload, achieving 
substantial cost savings.
    Administrative records may also us to enumerate occupied 
housing units rather than enumerate them directly, and I would 
like to have a conversation with the Congress about this 
potential step.
    Ultimately, we will have to send Census takers into the 
field to enumerate the remaining non-responding households, 
which underscores the importance of the fourth area of 
innovation: better field operations. As part of the research 
and testing, including the 2015 Census test in Maricopa County, 
Arizona, we are examining our field staffing structure and 
testing several technological innovations. The goal of 
reengineering our field operations is to use technology more 
efficiently and effectively to conduct and manage the 2020 
Census field workload.
    In previous Censuses, the entire process, both data 
collection and management, was conducted by paper and pencil. 
To measure progress, we had to rely on daily in-person meetings 
with field staff and had no ability for real-time 
communication. This paper-based data collection process was a 
significant contributor to the overall cost increases of the 
previous Census field operations.
    We are developing a sophisticated operational control 
system that will manage tasks and assignments in real time. We 
intend to send our interviewers out with mobile devices rather 
than paper and pencil. They will use these devices to collect 
responses and report their time and attendance instead of using 
the paper forms as in 2010. And we will have real-time measures 
of progress.
    Our goals are to incorporate operational best practices, 
including the optimization of daily assignments, intelligent 
routing, and real-time issue management. We are working with 
the private sector as we build these systems.
    The four key innovation areas represent significant cost 
savings that can only be achieved if we get the opportunity to 
complete significant testing and development in the next 2 
years. We have very little time left to test and ultimately 
important these innovations before we reach 2018, when the cost 
of the Census will rise. 2018 is also important because we must 
conduct a complete end-to-end test so we can be confident that 
when we go live in 2020, all of our systems will work.
    To realize the most modern decennial census ever, we have 
to stay on track. That is why next year is crucial to the 2020 
Census for the development of the key systems to support the 
infrastructure to handle data collection and processing.
    One of the critical activities in 2016 is the continued 
development of our Census Enterprise system that will support 
not just the 2020 Census but all of our data collection 
activities at the Census Bureau. We will no longer build a 
system that we will throw away after the decennial, as we have 
for each previous Census. Known as the Census Enterprise Data 
Collection and Processing (CEDCaP) program, we are moving to a 
smarter, more cost-efficient, enterprise-level strategy to 
manage core information technology aspects for all of our 
Censuses and surveys.
    At the core of this modern system that we are building is 
our continued commitment to protecting privacy and 
confidentiality of individuals' information. Confidentiality 
and privacy is the very core of the Census Bureau's mission and 
deeply ingrained in our culture. We protect the information the 
public provides with a robust, comprehensive, and layered 
cybersecurity system. We are actively engaged with the National 
Institute of Standards and Technology (NIST) and the Department 
of Homeland Security on these efforts.
    From the Census Enterprise system and cybersecurity to each 
test, each activity plays a significant role helping the Census 
Bureau design an accurate and cost-effective 2020 Census. 
Scaling up to the decennial census is complex, ranging over 
many years and many operations, which must be synchronized to 
meet our ultimate mandate. The $5 billion in savings cannot be 
achieved without rigorous testing designed to inform 
development of the systems and operations. We need your support 
to achieve these goals.
    Thank you, and I hope this update has been informative, and 
I look forward to answering your questions.
    Senator Lankford. Mr. Goldenkoff.

   TESTIMONY OF ROBERT GOLDENKOFF,\1\ DIRECTOR OF STRATEGIC 
         ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldenkoff. Thank you, Senator Lankford. I would like 
to thank you and Chairman Johnson and Ranking Member Carper for 
the opportunity to be here this afternoon to discuss the Census 
Bureau's progress in developing a more cost-effective approach 
to counting the Nation's population.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Goldenkoff and Ms. Cha 
appears in the Appendix on page 45.
---------------------------------------------------------------------------
    As you know, this month the Bureau marked the midway point 
in the decade-long countdown to Census Day 2020, giving greater 
urgency and importance to the testing, operational, and 
procurement decisions that it will make in the months ahead. 
For example, this September, the Bureau plans to announce its 
preliminary design for the 2020 Census, and two key field tests 
to inform that decision are currently underway.
    The cost of the decennial census has continually increased 
during the past 40 years, in part because the Nation's 
population has grown steadily larger, more diverse, and 
increasingly difficult to enumerate. At about $13 billion, the 
2010 Census was the costliest U.S. Census in history and was 56 
percent more expensive than the $8.1 billion spent on the 2000 
Census in constant 2010 dollars.
    In my remarks today, I will discuss the Bureau's progress 
in implementing four critical cost-savings initiatives and 
their associated challenges. The four areas include: using data 
previously provided to the government to help enumerate the 
population; new processes for updating the Bureau's address 
list and maps; reengineering field operations; and maximizing 
self-response.
    As the Director said, combined, the Bureau estimates that 
these efforts could generate up to $5 billion in cost savings 
and enable the Bureau to conduct the 2020 Census at a total 
life-cycle cost of around $12.7 billion, or about the same as 
the 2020 head count.
    With respect to using data previously provided to the 
government, the Bureau estimates that this initiative, 
sometimes referred to as ``using administrative records,'' 
could save as much as $1.2 billion by reducing the need for 
costly, labor-intensive follow-up work with non-responding 
households.
    The Bureau is testing the extent to which it can use 
Federal data such as Social Security and Medicare records as 
well as records from State, local, and tribal governments and 
commercial sources to reduce the number of in-person visits, 
local Census offices, and operations needed to ensure a 
complete count.
    However, before it will be able to realize cost savings or 
improvements in data reliability from the use of these records, 
the Bureau will first need to address such questions as the 
quality of the records and whether they will meet the Bureau's 
needs. For example, while race and ethnicity data are collected 
in the Census, certain records available to the Bureau do not 
include this information.
    To reduce the cost of its efforts to update its address 
list and maps by as much as $1 billion, the Bureau is testing 
whether it can rely mainly on data from government agencies at 
all levels to share and continuously update their address list 
and street data with the Bureau.
    In prior decennials, thousands of Bureau field staff walked 
almost every street in the Nation as one of several operations 
to update the Bureau's address list. Key questions here include 
which map and address data sources are the most cost-effective 
and whether the Bureau can accurately target its address 
canvassing efforts.
    With respect to improving the management of its field 
operations, the Bureau is examining, among other things, how 
best to automate enumerators' work, which could save an 
estimated $2.3 billion. However, the Bureau must first resolve 
whether it can fully test all the systems and procedures in 
time for 2020.
    A fourth cost-saving area involves maximizing self-response 
through enhanced outreach and an Internet response option. This 
effort could reduce the need for enumerators to visit non-
responding households and save around $500 million. However, 
among other issues, the Bureau has yet to establish reliable 
estimates of how much it will cost to deliver an Internet 
response option and does not have integrated schedules for 
completing the work.
    The Bureau has identified or acknowledged many of the 
challenges and questions associated with these four initiatives 
and is working to address them. Because of their interrelated 
nature, shortcomings in any one area could impact the success 
of the others and thus put estimated cost savings and the 
accuracy of the count at risk.
    Going forward, it will be important to ensure the research 
and testing for these initiatives continue as planned to inform 
key design decisions later this year.
    This concludes my prepared remarks, and I will be happy to 
answer any questions that you may have.
    Senator Lankford. Thank you.
    Ms. Cha.

     TESTIMONY OF CAROL R. CHA,\1\ DIRECTOR OF INFORMATION 
   TECHNOLOGY ACQUISITION MANAGEMENT ISSUES, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Ms. Cha. I would like to express my thanks to you, Senator 
Lankford, to Chairman Johnson, Ranking Member Carper, and 
Members of the Committee for inviting me to testify today.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Ms. Cha and Mr. Goldenkoff 
appears in the Appendix on page 45.
---------------------------------------------------------------------------
    IT implementation will be a key factor in whether the 
Bureau will be able to adequately contain the costs for 2020. 
The Bureau's past efforts have not always gone well. Our work 
on the 2010 Census highlighted the mismanagement and major 
cost, schedule, and performance issues associated with several 
critical IT investments, one of which was intended as a cost-
savings measure but instead increased the costs of the Census 
by up to $3 billion.
    For 2020, the Bureau will rely on an enterprisewide IT 
initiative called ``CEDCaP'' to deliver the systems and IT 
infrastructure needed to carry out its cost-savings 
initiatives.
    For example, CEDCaP is planning to deliver the online 
survey instrument and a cloud computing solution to support an 
Internet response option. For field reengineering, the program 
is planning to implement a new system to track and manage field 
work. It will also test the use of mobile devices, either 
government-issued or employee-owned, for field data collection.
    Recent estimates put the program's cost at about $548 
million through 2020. Given the Bureau's prior and existing 
challenges, we highlighted CEDCaP as part of a new entry onto 
this year's GAO high-risk list as one of a handful of major IT 
investments in need of the most attention, and we plan to 
initiate an in-depth review for this Committee later this year 
on CEDCaP.
    Based on our work to date, I would like to highlight two 
key challenges this afternoon regarding the Bureau's IT plans 
for 2020.
    First, the time constraints. September's decision is 
expected to drive the business requirements for CEDCaP's 
systems and infrastructure. This milestone, which has already 
been delayed by a year, cannot afford to slip further. However, 
as we reported earlier this year, the Bureau had not yet 
addressed how two critical inputs into this decision would be 
addressed. These inputs relate to the Internet self-response 
rate and the IT infrastructure security and scalability needs. 
And if they are not adequately addressed by September, it could 
lead to system rework downstream, eating into an already narrow 
schedule margin.
    By October 2018, the Bureau intends to begin end-to-end 
testing to validate that CEDCaP's systems are ready to go live 
on Census Day. This gives the Bureau roughly 3\1/2\ years to 
develop and integrate planned systems, which may seem like a 
lot of time but is not based on past performance, and a lack of 
experience implementing technologies at the scale of the 2020.
    The October 2018 milestone date is a prudent one for 
planning purposes. If this date slips to the right and system 
testing is compressed, then we very well could have another 
HealthCare.gov on our hands.
    In order to decrease the risk of system rework downstream 
and protect the October testing date, the Bureau should fully 
implement the recommendations we made to ensure that this 
September's decision will be adequately informed.
    The second key challenge is the Bureau's current IT 
posture. The Bureau has made important progress to strengthen 
and institutionalize IT governance and requirements management, 
and as a result, the Bureau is better positioned to manage and 
oversee its IT investments than in prior decennials. However, 
more work is needed to address critical IT workforce gaps and 
information security deficiencies.
    In particular, the Bureau does not have the requisite 
competencies in enough numbers to meet IT workforce needs. 
These skills gaps include systems engineering, IT security, 
cloud computing, and Internet data collection, to name a few.
    To the Bureau's credit, it is aggressively working to close 
these gaps. However, if they do remain open, the Bureau's 
ability to deliver CEDCaP effectively will be hampered.
    In addition, the Bureau does not yet have a comprehensive 
information security program, something we first reported on in 
January 2013. Among other things, the Bureau had not 
effectively implemented appropriate access controls to protect 
its systems from intrusion. For example, the Bureau did not 
adequately encrypt Title 13 data in transmission and at rest, 
nor did it use secure protocols to manage its IT 
infrastructure, which placed sensitive data such as 
administrative user accounts and passwords at risk of 
compromise. As a result, we made 115 recommendations to address 
these control deficiencies. As of today, the Bureau has fully 
addressed 19 of them.
    Given that the Bureau is considering using IT systems to 
collect the public's personal information in ways that have not 
been used in the prior decennial, implementing our security 
recommendations must be a high priority.
    In summary, while the Bureau is in a stronger position to 
manage its IT investments than in the 2010 Census, it is also 
starting development work much later in the decade. The margin 
for error is slim. And the current workforce and information 
security gaps add significant risk to the 2020 Census. Moving 
forward, swift actions to fully implement our open 
recommendations must be taken. Doing so will improve the 
Bureau's ability to deliver on its IT plans and realize cost 
savings.
    That concludes my statement, and I look forward to 
addressing your questions.
    Senator Lankford. Thank you, all of you.
    And as promised, Senator Carper is here and will give an 
opening statement.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks so much, Mr. Chairman. What I would 
really like to do is get right into the questions. It is nice 
of you to yield to me.
    I would say that I would like to ask that my statement be 
made part of the record,\1\ unless one of my colleagues 
objects.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 35.
---------------------------------------------------------------------------
    Senator Lankford. Without objection.
    Senator Carper. All right. Good.
    Just very briefly, we have been doing this for 200-and-some 
years--not us here. We have not been in the Senate that long. 
But we have had Senators interested in trying to get a good 
Census and trying to do it in a cost-effective way.
    A lot of people think that we in Washington cannot organize 
and run a good three-car funeral procession. And we have a 
great opportunity here to demonstrate, by careful planning, 
smart funding, good oversight, that we can do some amazing 
things with the technology and the tools and the people that we 
have. It is just really imperative that we deliver. And this 
oversight hearing today is in part designed to make sure that 
you can deliver and that we will be proud of the work that is 
done in the next 5 years.
    Thank you.
    Senator Lankford. Thank you.
    Let me address just a few questions, and then we will 
continue moving through questions here on the dais as people 
arrived.
    Mr. Thompson, you had mentioned that there are some things 
you need to talk to Congress about, about vacant units. Is 
there something you are needing from Congress directly, 
clarification or statutory changes?
    Mr. Thompson. Thank you, Senator. There is, but let me 
clarify my statement first. So in collecting the information 
from our non-responding households to the Census, we are 
testing ways in which we can use administrative records to 
enumerate occupied housing units instead of direct in-person 
enumeration. And we want to make sure that we are on the same 
page as the Congress in terms of taking this step, if we should 
propose to take this step.
    Now, with regard to help from the Congress, there is a data 
set--it is called the National Directory of New Hires (NDNH)--
and it is maintained at the Department of Health and Human 
Services (HHS), and it would help us greatly in our program, 
and we would need some legislative changes to have access to 
that file.
    Senator Lankford. OK. What other data do you need here? 
Obviously there are multiple different databases between the 
IRS, Social Security, Department of Labor (DOL); HHS has it, 
you have it. There are lots of data sets around there. I guess 
the question for me initially would be: Which particular data 
sets do you want to be able to use? And, second, are any of 
these agencies charging Commerce to be able to have access to 
that data?
    Mr. Thompson. Thank you. So you have named some of the data 
sets that we already have access to. We are also in the process 
of acquiring the Supplemental Nutrition Assistance Program 
(SNAP) records State by State and the Women, Infants, and 
Children (WIC) program records so we can put these together in 
a very private way, protecting privacy, and using them and 
research them as we proceed with the Census.
    We are not being charged by the other agencies for these 
data sets. In fact, the Secretary of Commerce has great 
authority to ask for these records in conducting the job of 
carrying out the Census.
    Senator Lankford. OK. We had an extensive conversation here 
at this same Committee room just a couple of weeks ago about 
the Death Master File (DMF), and that we have about 6.5 million 
people that are listed in our systems right now that are over 
114 years old, I believe--112? Excuse me. A lot younger than 
that, 112 years old, when we actually think there are less than 
two dozen in the United States. So we have some problems in 
those data sets that are out there. How are you going to try to 
address that to make sure we do not get individuals into the 
system that are not really alive anymore?
    Mr. Thompson. Part of our research program, is to look at 
which records can be effective and in which combinations of 
records that link together. So we do need to do an extensive 
research program to feel comfortable before we use 
administrative records. And we are looking at those very things 
right now.
    Senator Lankford. OK. That is one of the aspects that we 
will need to resolve, both how that is resolved within Census 
and then obviously we would like to know that information so we 
can get a chance to share that with other entities within the 
Federal Government, because as I mentioned, with the Death 
Master File, that has extensive millions of names on it that 
are no longer with us anymore. We have to be able to resolve 
that.
    Mr. Goldenkoff, you have a very interesting statement, 
which I have read and seen multiple times before. If we can put 
all of these different aspects into place, all these different 
innovations, we could save $5 billion. And so by saving $5 
billion, we would spend the same as we did last time.
    Now, if I sold you a pizza for $10 and said I am going to 
sell you the next one for--I am going to save $5 for you, and 
it is going to be the same cost, I am not sure you would think 
that was a savings. So I am working through the math here 
between how we save $5 billion, yet we do it for the same cost 
as we did last time.
    Mr. Goldenkoff. Well, part of it is a unit cost, roughly 
$100 per housing unit. So you would expect to see some cost 
increase because the population----
    Senator Lankford. Right, because of the number of people.
    Mr. Goldenkoff. Exactly. The workload is more. So that is 
why we look at the unit cost, and it works out roughly the 
same, about $100 per housing unit.
    Senator Lankford. Is there a way to be able to save unit 
cost, that the unit cost goes down? Or are we tapped out? I 
think it is $97, the last stat that I saw, per person to be 
able to do this. Is there a way to be able to save money per 
unit cost rather than saying we had a growing population, we 
assume it still costs $97 per person to do this.
    Mr. Goldenkoff. Well, there is always a cost-quality 
tradeoff. You can always conduct a count for less. The question 
is: How accurate is it going to be? And that is always--that 
has to be weighed. I mean, the Constitution requires that 
everybody be counted, and so that is the gold standard. And so 
because of the increasing complexities of counting everybody, 
the cost goes up from Census to Census. The Census Bureau needs 
to work harder each decade just to stay in place.
    Senator Lankford. So going back to something Ms. Cha 
mentioned before, in 2010 we had a $3 billion process of 
innovation that came through. I think that was dealing with the 
handhelds--is that correct?--is what it circled around.
    Ms. Cha. That is correct.
    Senator Lankford. So a $3 billion cost. A $13 billion 
program really cost $10 billion because we had a $3 billion 
program that ended up not being fully implemented and we lost 
there. So what I am trying to figure out is we save $5 billion, 
however we are still at basically the same cost as we did last 
time per person, and we had a $3 billion failure last time.
    Mr. Goldenkoff. That is correct. And I also need to say 
that, GAO has not verified these cost estimates, so we are 
relying for now on the Bureau's estimates. We will probably be 
doing work in the future where we will look into the validity 
of those estimates.
    Senator Lankford. Is there a difference in the American 
Community Survey and the cost per person in that piece versus 
the every-10-year-Census piece, cost per person?
    Mr. Goldenkoff. I do not have that information.
    Senator Lankford. Mr. Thompson, do you happen to know that 
number, cost per person, the American Community Survey that we 
do every quarter basically?
    Mr. Thompson. I am sorry. I do not have that figure.
    Senator Lankford. Do you think it is higher or lower? Just 
a ballpark on that.
    Mr. Thompson. I think it is probably higher for the 
American Community Survey, somewhat.
    Senator Lankford. OK. I am going to keep going on 
questions, and I will come around for a second round here in 
just a moment. I will recognize Senator Carper, the Ranking 
Member, for the next set of questions.
    Senator Carper. Why don't I just go last? I would like to 
hear the others.
    Senator Lankford. OK.
    Senator Carper. Then I will just come in at the end. Thank 
you.
    Senator Lankford. Senator Ayotte, you came in next after 
that.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you. Thank you all for being here.
    Here is what I wanted to understand. I know that you have 
taken steps to use commercial mapping information in putting 
together the proposal for the upcoming Census. And as I 
understand it, you are using portions of that commercial data 
to fill in gaps, but you still would be creating essentially 
your own product of the map that you need for this. What I 
wanted to understand is why we do not further use the 
commercial products that may be available. Why is the Request 
for Proposal (RFP) limited to filling in gaps rather than 
relying more heavily on commercial, already existing products 
where they already have? I know that their products may not be 
able to fully do this, but could do a significant amount of it. 
So what is the thinking there?
    Mr. Thompson. Well, thank you, Senator. We have been 
talking with a number of the companies in that field. We have 
an RFP, as you noticed.
    Senator Ayotte. Right.
    Mr. Thompson. We want to evaluate the quality of the 
materials that are available in the private sector and where 
they will work and save us from walking the ground where we 
intend to use them.
    We also will be having another RFP coming out soon which is 
going to be asking the private sector for services such as 
automated change detection and the like.
    So we are looking forward to seeing the responses to the 
RFP, and we are looking forward to using commercial data where 
it is available.
    Senator Ayotte. So couldn't commercial data be used in a 
much broader capacity than what your current RFP suggests?
    Mr. Thompson. I did not think that we were trying to limit 
the commercial data through the RFP process.
    Senator Ayotte. So are you open to--for example, if 
commercial data for mapping would get you--I am just using a 
number--90 percent there and you had to fill in the rest to 
complete your product, are you open to doing that?
    Mr. Thompson. Yes.
    Senator Ayotte. OK.
    Mr. Thompson. Yes.
    Senator Ayotte. It seems to me, I mean, so many of us use 
this data in so many capacities, and so always re-creating the 
wheel, this is a place where I know you are already taking 
important steps to do this, but we could save a lot of money 
for the public.
    Mr. Thompson. Yes.
    Senator Ayotte. I wanted to follow-up on some of the GAO 
findings. What are the issues that you are going to be able 
to--one of the big things, I think, that overlies all of this 
is transparency in costs and measuring and achieving savings. 
How do you think that you will meet the transparency goals so 
that we can actually understand how much we are paying for 
things in a much more open way so that when we have our 
oversight function we do not end up in a position where we are 
not having the right type of oversight?
    Mr. Thompson. Well, thank you. We are committed for this 
Census and the 2020 cycle to being very open and transparent 
with our methods. I think we have a good relationship with the 
GAO. We certainly hope that they will--and we know they will--
look carefully at what we are doing.
    I should also note that once a quarter we have a project 
management review in a public way for the 2020 program, and we 
webcast it. We make it available and we want everyone to see 
how we are planning and what we are doing, and we are trying to 
be very transparent with that.
    Senator Ayotte. So, Ms. Cha, thank you for your testimony, 
and I think it is an eye opener for all of us when we hear 
potential analogies to HealthCare.gov, because obviously we all 
got an earful from our constituents and others over that 
rollout.
    What are the most significant steps that we could take in 
this Committee to make sure that, in fact, this IT procurement 
goes properly? One of the issues that we have I think overall 
in the government--it is not just unique to this. We are 
particularly bad at this. Throughout the government we have had 
numerous occasions where we have invested a lot in a particular 
system, and we have not ended up with the system that we hoped 
for or the costs went way over. So I just wanted to hear from 
your perspective. If you were sitting in our shoes, what would 
you think that we should do most to make sure that the warnings 
that you have given us do not occur?
    Ms. Cha. Well, Senator, your continued and sustained 
oversight of the 2020 Census and particularly the CEDCaP 
program will be vital. These large and complex IT modernization 
programs are challenging, and it is one of the reasons why we 
cited CEDCaP as part of a new GAO high-risk entry this year in 
terms of improving IT management governmentwide. These programs 
rarely meet cost schedule and performance goals, and we have an 
opportunity here. The train has not left the station. And so, 
when we look at CEDCaP and we look at the complexity and the 
risks associated with this program and you layer on top of that 
the key challenges that I identified in terms of the time 
constraints as well as the risks associated with the IT 
workforce gap and the information security control 
deficiencies, there is quite a bit of risk here. I think there 
is an imbalance.
    And so to the extent that that the Bureau can focus on 
implementing a simpler solution, that would, I think, set the 
Bureau up for success relative to IT.
    Senator Ayotte. So as I see it, I hear you saying that the 
solution they are proposing may be too complex to achieve 
during this period with the workforce that they have.
    Ms. Cha. That is correct.
    Senator Ayotte. And is there anything more we should be 
doing also on the workforce gap issue? Which, frankly, is 
something that we face across government agencies, because this 
is a highly competitive field.
    Ms. Cha. Well, again, it is that continued monitoring on 
your end. I do want to say that the Bureau is aggressively 
looking to close these gaps that they do have. However, if 
these gaps are not effectively closed, then I think the Bureau 
needs to, again, continue to identify ways to decrease the 
complexity of the CEDCaP initiative.
    Senator Ayotte. So my timing is up, but I would like to 
hear what your response would be to that about making this a 
simpler process so it could be easier to achieve.
    Mr. Thompson. Certainly, Senator. So I think I would coin a 
phrase from our Chief Information Officer (CIO), and it is 
something that worked very successfully in the 2000 Census when 
we did deliver our systems on time and on schedule, and that 
is, we are innovating but we are not inventing. So our plan is 
to use existing technology and existing expertise and innovate 
by using that intelligently.
    So, for example, we are going to be using a smartphone, but 
the smartphone already exists. We are not going to invent one 
like we tried to invent a handheld the last time.
    We are using optimized systems for our routing, but we are 
not building--those systems already exist, and a number of 
people have very good ones, including the United Parcel Service 
(UPS). So we are trying to take advantage of what is existing 
and not trying to invent new things.
    Senator Ayotte. Thank you.
    Senator Lankford. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you for being here and for your 
testimony. As Senator Carper mentioned, it is important to get 
this right, and certainly it is a monumental undertaking to be 
able to count every individual in this country, and this is not 
an easy task. I appreciate that. But it is a very important 
task that you undertake, particularly from a public policy 
standpoint, so that we can make sure folks are protected, have 
resources, allocations that are done properly, so my hat goes 
off to you.
    I represent an area in Michigan, however, that has a very 
large population of folks from the Middle East and from North 
Africa. Mr. Thompson, I sent a letter to you earlier this year 
with a couple of my colleagues talking about that issue and the 
fact that that classification is not part of the Census. And as 
you know, it can be problematic because if you are not on the 
Census, you do not have access to some voting rights 
protections, including access to ballots in your home language 
to be able to vote and exercise that right. Also, it is 
difficult for researchers if we do not have that type of Census 
information to understand potential health disparities that may 
exist in the Middle Eastern population in Michigan and other 
places around the country, as well as employment discrimination 
and a whole host of things that we need to look into, and this 
would provide accurate data.
    My understanding is that you are going to test that 
category for Middle Eastern descent as well as North African. I 
appreciate your prompt response to our letter a ways back, but 
I want to take this opportunity to get an update from you as to 
where you are. I know when you responded to my letter, you 
mentioned you were going to be reaching out to stakeholders in 
the spring and consulting with community leaders within that 
community to get some assessment as to how you would proceed. 
Could you give me an update, please, on where we stand on that 
and how you look to proceed?
    Mr. Thompson. Certainly. So we have been having ongoing 
discussions with various members of the Middle Eastern and 
North African community, and we are testing including that 
categorization as part of our race and ethnic questions, and 
that test will take place this fall.
    We are looking forward to having an expert meeting of 
various Middle Eastern and North African scholars this spring 
so that we can really come up with a definition, if you will, 
of Middle Eastern and North African that everyone agrees to so 
we can use that as part of how we explain it when we conduct 
the Census. So we are on track.
    Senator Peters. Well, that is good to hear. I appreciate 
that.
    Have you heard from any other Americans or other 
organizations about a lack of representation in the Census? Is 
this unique to Middle Eastern community, or are there others 
that you are working on?
    Mr. Thompson. In terms of the----
    Senator Peters. Classification.
    Mr. Thompson. Classification of Middle Eastern and North 
African. We have heard from other constituents on other aspects 
of the question, but for inclusion, it has been basically the 
Middle Eastern and North African.
    Senator Peters. So that is where your focus is, it is going 
to be on this going forward?
    Mr. Thompson. Yes.
    Senator Peters. Great. I have many constituents, as you can 
imagine, given the large size of our community in Michigan, 
that are very passionate about this, and I understand that you 
have received thousands of inquiries from the community. Have 
you been responding directly? Or how can I respond to my 
constituents as to how you are listening to them and the 
response that they will receive?
    Mr. Thompson. I think what you are referring to is a 
Federal Register notice we put out that announced our plans for 
this fall test, and we received well over a thousand 
recommendations that we include in that test the Middle Eastern 
and North African category. And we are responding by a comment 
to the Federal Register notice to those recommendations that we 
got.
    Senator Peters. OK.
    Mr. Thompson. Now, we will group them together because many 
recommendations said the same thing.
    Senator Peters. Right. So you will be summarizing that in 
the Register.
    Mr. Thompson. Yes.
    Senator Peters. And the folks we could refer them to that 
as well as get back----
    Mr. Thompson. Yes.
    Senator Peters. Well, I appreciate that. The other issue 
that I am concerned about deals with the homeless population. I 
know you are reaching out to folks who are not going to be at 
an address to count to make sure that they are represented. In 
fact, in Michigan, Washtenaw County is one of 71 communities 
that participates in Zero: 2016, which is a campaign to end 
veteran and chronic homelessness. And as a result of a recent 
survey that they did, they did show a 24-percent decline in the 
number of people living on the streets and in shelters, which 
is a good thing. But I am particularly concerned, as they are, 
with homeless veterans who may be out there, who have the 
ability and certainly the right to access benefits, but may not 
be aware of it.
    It seems to me having Census workers out finding people who 
are living on the street--and you have the staffing to do 
that--presents an opportunity, first, to identify those 
individuals, but also, two, present them with information that 
may be helpful to get them to a place where they can get the 
services that they have earned and they deserve.
    Could you talk a little bit about how you reach out to 
folks who are homeless living on the streets and if you would 
be in a position to help in our efforts to bring these folks 
out of the shadows and into the help that they deserve and 
need?
    Mr. Thompson. Senator, getting an accurate count of all 
Americans is our primary goal for 2020. We are right now at 
this point in the process of starting to look at how we will 
blend in operations on top of our automation and reengineering 
to count these populations. So, for example,
    I have a National Advisory Committee on Racial, Ethnic, and 
Other Populations, and we are starting a working group on that 
committee right now to start addressing these issues.
    We want to address these issues over the years ahead, but 
right now I do not have a proposal for how we are going to 
count the homeless and the veterans in 2020. But we do intend 
to have a plan for that, and we will share it widely.
    Senator Peters. When do you expect to have that plan?
    Mr. Thompson. I would have to get back to you. I would say 
by the end of next year we should have some significant 
progress on that.
    Senator Peters. Well, I would appreciate that, and if you 
could inform our office about that, I would appreciate that. 
And then the second step is that when we identify these 
individuals, it also is an opportunity to make sure that these 
individuals, particularly homeless veterans, that there are 
benefits that are available to them and places of refuge for 
them to go. Although it is a different mission than you have 
for your Census workers now because of certainly the concern 
about those who have served our country who may be homeless, 
this may be an opportunity for us to kind of take a whole-
government approach to helping those individuals. I would hope 
you would be open to that as well.
    Mr. Thompson. Of course.
    Senator Peters. Thank you.
    Senator Lankford. Mr. Thompson, before I recognize Senator 
Carper, can I get a clarification? By the end of 2015 or by the 
end of 2016 you will have the plan for the homeless?
    Mr. Thompson. I was referring to the end of 2016.
    Senator Lankford. OK. So by the end of 2016, you will be 
able to have articulated a plan for that, for identifying the 
homeless and then doing a count there?
    Mr. Thompson. Yes.
    Senator Lankford. Great. Thank you. Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    Mr. Thompson, it is very nice to see you, and Mr. 
Goldenkoff, Ms. Cha. I love saying your name.
    This is not your first opportunity to be involved at a 
senior level for the Census. Is that correct, Mr. Thompson?
    Mr. Thompson. That is correct, Senator. I was the career 
person in charge of the 2000 Census.
    Senator Carper. OK. Just thinking back on your tenure with 
the Census Bureau, share with us some of the insights or things 
you have learned in this tour as our Director that are new and 
that you did not know before and how might they direct us as we 
try to get a better result for less money?
    Mr. Thompson. Well, Senator, you are hitting on the reason 
that I came back into public service. When I left the 
government in 2002 and went to the private sector, I had no 
intention of coming back into government. But I could not 
foresee just the way that technology had developed and offered 
a lot of opportunities to do the Census fundamentally 
differently than we had done it before. And that got me excited 
to come back into government and help the Census Bureau move 
forward.
    Senator Carper. When you watched back in 2010, or actually 
the run-up to 2010, when they were trying to develop the 
handheld, and rather than get something off the shelf, actually 
develop and build and invent it, as you said, invent it 
ourselves, what did you think as you watched that unfold?
    Mr. Thompson. I was very disappointed that that happened, 
that that event happened. I was fairly close to it. I was on a 
panel that Secretary Carlos Gutierrez called together to give 
him a recommendation on how to proceed in the aftermath of the 
handheld contract issues. I was just disappointed and sorry for 
the Census Bureau. I wish I could have been there, but I was 
not.
    Senator Carper. My recollection was this is when Dr. Coburn 
and I were taking turns leading the Subcommittee on Federal 
Financial Management that had jurisdiction over the Census. And 
it seems to me we went through a period of time where we had a 
fair amount of churning in terms of leadership at the Census. 
Is that correct? I think we had someone who was Acting 
Director, and then within the span of a couple years, we had 
maybe a couple of other people who were Acting Directors. We do 
not have that challenge anymore, do we?
    Mr. Thompson. Not right now.
    Senator Carper. That is right.
    Mr. Thompson. I am delighted to be the Director.
    Senator Carper. Because we have a law that actually says 
that the folks who are appointed in the job serve for 5 years, 
and the idea is that hopefully we will end up in a situation 
where we are not going to be in the throes or we are in the 
face of the Census and all of a sudden have turnover in 
leadership. My hope is that is going to serve us well.
    I am a guy who likes to think about incentives, how do we 
incentivize behavior to get better results, and I am real 
interested in root causes. We have a lot of people that are not 
interested in cooperating and being counted and providing 
information to the Census because of their right to privacy or 
they do not see any value for taking the time to either respond 
online or in person if somebody knocks on their door. They do 
not have an appreciation for the value of the information that 
we gain from the Census. They do not care how their 
Congressional districts are apportioned and all that.
    How do we incentivize people to be better citizens in this 
process? What are we doing, we collectively, to incentivize 
people to be better citizens in this regard? It is all great 
that we have the technology, we provide the money, the 
oversight, the funding. But how do we incentivize people? 
Collectively, how do we do that?
    Mr. Thompson. That is a very good question, Senator. We 
have started research on that issue already for the 2020 
Census. We have a test in the Savannah, Georgia, area, the 
Savannah, Georgia, media market, and we have already started to 
test different ways to reach out to the American public to 
encourage them to respond. And this is just the first in a 
series of tests, but we are starting this process much earlier 
than we did in the 2010 Census process.
    Senator Carper. OK.
    Mr. Thompson. But it is something that we have to conduct 
some research on because the population has changed. It is not 
the same population that we had in 2010.
    Senator Carper. All right. I agree with you. I thought that 
was a pretty good question, and I am going to ask you to think 
about your answer and respond to me on the record, because I 
think this is a big issue, and most people have not a clue of 
the value to our country, to their communities, of a Census 
done well.
    Let me also ask, one of my many favorite sayings is, ``Pay 
me now or pay me later.'' And I think that also applies with 
the President's budget request for 2016, and he is asking in 
his budget for the Census a bump-up in funding. Explain to us 
why that relates to pay me now or pay me later.
    Mr. Thompson. Certainly. So the biggest part of the bump-up 
is to start developing the systems and processes that we will 
use to take this reengineered Census, and it is a challenge 
because we have never done a Census this way before. We have 
never used handheld devices. We have never used the Internet as 
a self-response option for the Census. We have never used 
optimized routing. So there are a lot of gains through that. 
But we really have to do the work in 2016 and 2017 to have in 
place the system so that we can run a complete end-to-end test 
in 2018, and that would give us the assurance that we could 
avoid a bad situation, similar to what happened before.
    Senator Carper. OK. I have some more questions, and I will 
look forward to another round. It will give me a chance to pick 
on our other two witnesses. Do not go away.
    Senator Lankford. Thank you. We will open it up for 
questions here, and we will get a chance to go through as much 
as we can.
    Mr. Thompson, you had made a comment about identifiers and 
the Internet, as far as being able to follow-up. Can you 
complete that thought as well? If individuals go on to the 
Internet and they actually do their information, will they have 
an identifier there that is consistent so we will know who that 
was and have the consistency of that, as we would with a paper 
form?
    Mr. Thompson. Thank you, Senator. So let me be clear. What 
we are testing is in every Census to date, most of the 
enumeration required that an individual have either a Census 
questionnaire or an ID number that linked them to an address. 
What we are testing now is letting people respond with their 
address alone, and that has two issues that we have to feel 
comfortable with before we do it. One issue is we have to be 
able to validate their response as accurate. And the other 
issue is we know that in the past even we have had more than 
one response for the same address. And so we are going to have 
to be able to unduplicate the responses that we get. These are 
some challenging problems. We are working with experts in the 
field, including the National Institute of Standards and 
Technology, the MITRE Corporation, and some others.
    So we are taking this very seriously, and we need to be 
convinced that it will work. But if we can make it work, it 
does give us the opportunity to allow people to be counted when 
we reach them with a message if they do not have their 
questionnaire. So we think that the opportunity there is worth 
trying to do that. But as I said, we are testing it. We are 
going to have the results of our testing, and we are only going 
to implement it if we feel comfortable.
    Senator Lankford. So the assumption is that we would have a 
master list of every address in the United States, and if they 
pull up that particular address, they could fill out the 
information for that address, not that they are creating an 
address in the system. So there is some sort of verification 
even at the beginning if they are typing in an identifying 
address that we do not recognize as a real address.
    Mr. Thompson. Yes.
    Senator Lankford. OK. Ms. Cha, questions and thoughts about 
that? What are the risks involved?
    Ms. Cha. Well, in addition to the address verification, 
there is also the identity verification as well. So I just 
wanted to kind of round out that piece, these two key elements.
    On the former, it seems to be much more simple from a 
technology perspective to match the address that a respondent 
enters into the form and match that against the Master Address 
File (MAF). However, the concern that we have here is that it 
is unclear as to whether the Bureau knows exactly what it needs 
to know in time for its September 2015 decision. Again, that 
milestone decision is going to--it is intended to deliver the 
complete set of business requirements for the systems 
development piece.
    So if there is information regarding non-ID processing that 
is not contained in that decision, then ultimately it could 
lead to system rework downstream. So that is the primary 
concern that we have with regard to non-ID processing, just 
that the Bureau is--we are in year 5 at this time, and if 
continued testing in this area proceeds beyond September 2015, 
it will impact the systems that they are expecting to deliver 
and to deploy.
    Senator Lankford. Right. And you made extensive comments 
about cybersecurity issues and vulnerabilities. Your statement, 
if I remember correctly, access controls, you have 115 
recommendations of which 19 have actually been responded to at 
this point.
    Ms. Cha. That is correct.
    Senator Lankford. So what does that mean as far as your 
perception? At this point you would expect 115, 19 have been 
responded to. When would you anticipate the other 90-some-odd 
are going to be responded to?
    Ms. Cha. Well, we would like to see this be one of the top 
priorities for the Census Bureau. My understanding from my team 
is that the Bureau provided additional evidence late Friday 
afternoon, so my team will be looking at the progress that they 
have made in the remaining recommendations. And we are 
committed to working with the Bureau to ensure that they 
effectively close those out, because ensuring that the 
information that they are collecting is secured is of vital 
importance.
    Senator Lankford. Sure. Mr. Thompson, do you want to 
comment on any of that at this point?
    Mr. Thompson. Yes, Senator. My team is of the perspective 
that we have responded to all of the concerns. However, we have 
obviously not communicated that to our colleagues at the GAO, 
and I certainly intend to make sure we communicate that and we 
reach agreement as to which ones have been responded to, which 
ones have not, and what we have to do. And then I would be 
pleased to send a report back to you.
    Senator Lankford. Good. There has been great conversation 
in the last several years about the questions that are included 
or not included. There was a little bit of conversation in 2010 
over the issue of citizenship, as I am sure you will remember 
distinctly. Where do we stand on that conversation for 2020 as 
far as whether citizenship will be asked or are we going to get 
every single house, and then other questions that may change or 
that are being currently considered and when that list will get 
to us and we are evaluating these questions to be different 
than the previous 10 that were there, and when will we get a 
chance to take a look at those as well?
    Mr. Thompson. Senator, right now the citizenship question 
is on the American Community Survey. We have not received a 
request, because that is what determines the content of the 
Census, from those entities that have asked us to put that on 
there. So we have not received a request to put citizenship on 
the Census itself.
    Let me be clear about a couple things. In 2017, we will be 
submitting the topics that we plan to ask on both the Census 
and the American Community Survey to the Congress, and in 2018, 
we will be submitting the actual questions.
    Senator Lankford. OK. And let me ask about the American 
Community Survey. There has been a lot of consternation in 
Oklahoma, and I would assume in other States as well, about the 
nature of how it is collected if you do not respond to it. My 
office consistently gets calls from individuals saying someone 
is at their door, someone is parked outside. We have a single 
mom that is very uncomfortable that there is some guy outside 
in a car; they are knocking on the door consistently. All of 
those things to get the American Community Survey. How are we 
going to put this into a process that they understand this is a 
Federal Government that is working for them rather than a 
Federal Government that is stalking them? If they do not want 
to complete this, shifting that to a voluntary status, and so 
we can have some way that they do not feel like it is 
oppressive coming after them to be able to fill out the 
American Community Survey?
    Mr. Thompson. Thank you, Senator. I have heard the concerns 
about the American Community Survey. While it provides a wealth 
of very important information that is used by the Federal 
Government to allocate funds by State and local governments and 
by businesses to create jobs, we understand that there are 
concerns with the length of the American Community Survey and 
with the perception that the language on the envelope which 
says your response is required by law is offsetting. So we have 
embarked on a program to look at how we can address these 
concerns, and we are doing a number of things. We are looking 
to see if we can make the questionnaire shorter by asking some 
questions every other year if the data is not needed on an 
annual basis.
    Senator Lankford. There is some publicly available data as 
well that we seem to replicate.
    Mr. Thompson. Right. And we are also looking to see if we 
can use administrative data records to answer some of the 
questions on the form. We are looking at how we can increase 
our messaging, change our messaging to be more of a 
communicator, why it is so important that you fill it out, what 
it means to your community. And we are also beginning a program 
to test the language that we put on the envelope. So this May, 
we are running the test. That is next month. We are doing a 
test to measure the effect of not putting that language on the 
envelope so we can see what the effect is. So we are taking 
these concerns very seriously. The Secretary of Commerce is 
very attuned to this. I am providing a report to her at the end 
of this fiscal year, and she expects to see some significant 
progress in this area.
    Senator Lankford. Well, surely you can understand someone 
that shows up on your doorstep repetitively with a badge 
saying, ``I would like to ask you: What time do you leave for 
work? How many people are in your house? How many toilets do 
you have in your house?'' those questions immediately raise red 
flags for a lot of Americans. They do not want to answer it. 
But they also cannot make this person go away, which is why our 
office gets calls to say, ``Why is this person here? Why won't 
they go away? I have told them no, but yet they just keep 
coming at me.''
    So it is not just the nature of the questions, the length 
of the questions, the type of questions. It is the treatment of 
the individual that is at their door and the repetitive push 
for them. So there is a whole series of issues there. I 
understand the information is valuable, but there are a lot of 
issues that are still there in the American Community Survey 
that we have to resolve, and I am glad to hear that--you said 
this testing is in May. When will we get results from this?
    Mr. Thompson. I do not know exactly, but we do not intend 
to take that long to get it out.
    Senator Lankford. OK. So give me an example: By December?
    Mr. Thompson. Oh, definitely by December.
    Senator Lankford. OK. So this year, this summer? Into the 
summer?
    Mr. Thompson. I would hope so. But I do not want to commit 
to it, but we will definitely have it by December, probably 
much sooner than that.
    Senator Lankford. OK. Thank you. Senator Carper.
    Senator Carper. Before I move away from the American 
Community Survey, let us say if my household were one of those 
chosen in Delaware for the completion of the survey, is the 
first notification that we have been selected somebody knocking 
on my door? What would precede that?
    Mr. Thompson. The first thing you would see would be a 
postcard notifying you that you have been selected for the 
survey in the mail.
    Senator Carper. And then what?
    Mr. Thompson. And then you would get a letter asking you to 
respond by the Internet, and then you would get a questionnaire 
asking you to fill out the questionnaire and mail it back.
    At that point the next step would be if we had a telephone 
number for you, we would call the telephone number. The next 
step would be then we would send a person to visit you in 
person.
    Senator Carper. OK. Is there any time during that process 
we somehow convey to people why this is important for them to 
do it, to respond?
    Mr. Thompson. Senator, we do do that, but I think that 
there is room for us to improve on that. For example, we have 
already had one training of our entire field staff on how to 
approach households, and we are going to be doing additional 
trainings in this area. We need to do a better job of 
communicating to the American public why this survey is so 
valuable to them and why----
    Senator Carper. Just to keep in mind maybe what I hope we 
already do this, but whether it is in the postcard or whether 
it is in something that folks get over the Internet or 
something that people get in writing saying, ``You are going to 
get a survey,'' just to be able to say in a very short few 
words why this is important, without a whole lot of verbiage.
    I want to sort of refocus for a little bit, if we could, 
and talk about cybersecurity. Ms. Cha, we are going to get you 
in the act here. Let me just ask, what do you believe needs to 
be done with respect to cybersecurity, on the cybersecurity 
front, as we prepare for the 2020 Census?
    Ms. Cha. First and foremost, it has to be addressing the 
115 recommendations that we have made relative to those control 
deficiencies. Again, as I mentioned to Senator Lankford, access 
controls in particular are of vital importance in 
strengthening, because those regulate who and what is accessing 
the Bureau's systems. And so, as the Bureau is exploring these 
methods to collect data out in the field, including, using 
personally owned devices or government-issued devices, it is 
going to be critical for the Bureau to secure those back-end 
systems to make sure that the information is properly secure.
    In addition, if they are expanding the use of 
administrative records, they are also going to have to shore up 
the controls there to ensure that that information is 
adequately protected.
    So addressing our 115 recommendations made is the top 
priority.
    Senator Carper. 115? That sounds like a lot.
    Ms. Cha. Well, actually, it is a little lower since the 
Bureau at this time has addressed 19 of them, so roughly 20 
percent.
    Senator Carper. OK. You have already talked a little bit 
about this today, I think, Mr. Thompson. Would you just kind of 
think out loud again for us on the cyber front? As we sit here, 
folks from all over the world are hacking into government 
systems trying to steal our intellectual property, identifiable 
information, and it is a huge challenge for us. What can you 
tell us that would make us think that we are up to this 
challenge?
    Mr. Thompson. Yes. So we have a multi-layered system to 
protect information. We limit the access to our systems. Within 
our program we have ways to control who can access the data. We 
encrypt all of our individual data when it is at rest, so, for 
example, our philosophy is that if we have data on a machine, 
we assume the machine can be compromised and, therefore, we 
have to protect and encrypt the data.
    We have some very sophisticated ways that we look at the 
Internet traffic that moves in and out of the Census Bureau. We 
work with the Department of Homeland Security on that 
detection. We also scan all of our outgoing traffic to make 
sure there is no personal information in it.
    But having said that, and we do want to get straight with 
the GAO on the 119 recommendations because we take that very 
seriously, and we want to be in compliance with those because 
that is the kind of practices that we need, and we will get to 
the bottom of that.
    Senator Carper. Let me just ask a question. Of the 115 
minus 19--what is that, 96--outstanding, are some more 
important than others? I presume they are.
    Ms. Cha. Yes, and the access controls-related 
recommendations are of the utmost priority.
    Senator Carper. What Ms. Cha just said, is that something 
that rings a bell, access controls?
    Mr. Thompson. I believe we have addressed that. But, again, 
I need to get with our people and her people and make sure that 
what we think is addressed is what the GAO thinks is addressed, 
because I would rely on them and their final say on that.
    Senator Carper. OK. Let me ask you about hard-to-count 
populations. We talked about this already, but it is certainly 
one of the most challenging jobs in the Census and also one of 
the most expensive, a real cost driver. Maybe what we learned 
from the last couple of times out, 2000, 2010, about counting 
hard-to-count populations, one of the ideas I floated, I guess 
in the run-up to 2010, was maybe we could have--in terms of 
incentivizing people, to find ways to really say, ``I would 
love to''--``I cannot wait to respond to the Census because 
this is what I will get out of it.'' We threw out ideas for 
lotteries where people could have their name--if they were 
early responders, they could be in a lottery, just all kinds of 
ideas. But hard-to-count populations, people who do not want to 
be counted, people who do not want you to know they are there, 
folks who maybe because they are undocumented, or maybe because 
they are parole violators, how do we get some of those people 
to come out of the shadows?
    Mr. Thompson. So one of the most important ways that we 
have found to help count those populations is through a program 
that we call ``local partnership,'' and that is where during 
the decennial census we have a number of individuals that we 
identified that have local ties to communities, they are 
trusted voices in the community, and by working with these 
people, giving them materials about why the Census is important 
to their community in particular, not just in general but to 
particular communities, we have seen gains in the 2000 Census 
and the 2010 Census in reducing the differential undercount 
between minority and non-minority populations. So we are seeing 
those gains. It is not perfect, but it does show that the more 
we can reach out on the local level with trusted voices to 
convince people to be counted, that works and pays big 
dividends. And that is something else we are starting to work 
on at this point in the decade.
    Senator Carper. Good. All right. Thanks. Thanks so much.
    Mr. Chairman, if we have another round, I have a few more 
questions.
    Senator Lankford. Go ahead.
    [Pause.]
    Senator Carper. Mr. Goldenkoff and Ms. Cha, what is next 
for GAO's oversight for the 2020 Census? Give us a look ahead.
    Mr. Goldenkoff. Our focus is on the operational aspects and 
the cost-savings estimates, so we are going to be looking at 
these other four cost-savings initiatives that Director 
Thompson mentioned. We have ongoing work that is looking at the 
Census Bureau's use of administrative records. That report will 
be out in a couple of months. After that, we will be looking at 
the Census Bureau's use of targeted address canvassing, and we 
also expect to look at the Census Bureau's cost estimates, and 
we will try and validate them. Right now they are estimates, 
but we do not know what is behind them.
    Senator Carper. Ms. Cha.
    Ms. Cha. In addition to that, Senator Carper, we will be 
starting a review for this Committee with regards to the CEDCaP 
initiative, and we will be starting that later this year, 
roughly in the October timeframe. So that is going to be very 
critical because we will know early on whether or not the 
quality of the September 2015 decision is good or not in terms 
of the completeness of the business requirements, again, 
because having a full, comprehensive set of business 
requirements is critical to informing the system development 
work downstream.
    Senator Carper. Why don't each of you give us--we have 
already heard you in response to other questions talk a little 
bit about this. But if you were sitting up here with us and you 
wanted to make darn sure that we got a good Census at a 
reasonable price, what are the one or two things that you would 
do if you were in our shoes to make sure that that happened so 
that it would not be on us and we would have better met our 
responsibilities? Ms. Cha, why don't you go first? You look 
like a potential Senator.
    Ms. Cha. Well, I think going back to my response to Senator 
Ayotte, with regards to the complexity of the CEDCaP initiative 
itself, I think based on the risk that the Bureau currently has 
relative to IT acquisition, it would behoove them to look at 
whether there are simpler ways to go about acquiring the CEDCaP 
initiative. It is quite ambitious, and, again----
    Senator Carper. There are people who might be watching this 
on television or listening, and they would say, ``What is 
CEDCaP? '' Could you just explain it in terms that people might 
understand?
    Ms. Cha. Yes. It is the enterprisewide IT initiative that 
will deliver the systems and the infrastructure to support the 
2020 Census. So it is a collection of roughly 14 projects and 
multiple systems beneath those projects. So it is a large and 
complex IT modernization program, and it is critical that the 
risks that we have identified with regards to the time 
constraints as well as their IT posture in general, that those 
risks inform the decisions about IT that they will be making in 
September in terms of what is actually realistic and viable for 
2020.
    Senator Carper. All right. Same question. Mr. Goldenkoff, 
please.
    Mr. Goldenkoff. I would hold the Bureau accountable for 
meeting costs and scheduled milestones. If you look at where 
the 2000 Census went off the track and the 2010 Census went off 
the track, past experience has shown that the Census Bureau 
either runs out of time or runs out of money. So the best way 
to make sure that the Census Bureau is on track is regularly 
checking in with them and monitoring whether they are meeting 
their cost milestones and their schedule milestones. And that 
is the early indication that things are going off the rails.
    Senator Carper. All right. Director Thompson, if you were 
Senator Thompson and this was Director Lankford, what would you 
make sure we get done?
    Mr. Thompson. I would rather comment in a different way.
    Senator Carper. OK.
    Mr. Thompson. We are putting some things in place to try to 
minimize the risk, because you can never be sure. So, for 
example, the document we are producing this fall, the 2020 
Census Operational Plan, and it will be 3 years earlier than we 
issued an operational plan for the 2010 Census. So we are 
getting an early start on it.
    We have in place an active risk management framework (RMF) 
and risk management process where we constantly identify major 
risks, and we constantly look at how we can find contingencies 
for those risks. We would be happy to share that with the 
Committee so you can feel comfortable that we are looking at 
the right risks.
    In terms of the enterprise IT systems, we do not argue with 
the GAO that it is a high-risk system because we are developing 
new processes. But I can assure you that this is getting full 
attention from the Department of Commerce. The Department of 
Commerce CIO is fully engaged with this program and with our 
CIO on the program. In fact, he is running an independent 
verification and validation (IV&V) process on the program. So 
he is taking it very seriously, too. The whole Department of 
Commerce has this as one of their priorities, and success is 
one of the priorities of the Department of Commerce.
    Senator Carper. Good. Mr. Chairman, I have one more. Do we 
have----
    Senator Lankford. Sure.
    Senator Carper. In my old job as Governor, when we were 
wrestling with a problem in Delaware, trying to figure out how 
to deal with a challenge, sometimes in a Cabinet meeting I 
would say to my Cabinet, ``Some other Governor in some other 
State has dealt with this issue. They figured out how to deal 
with it in an appropriate way successfully. What we have to do 
is find that State, that Governor, whoever worked on this issue 
in another State, and find out: Did it really work? Is their 
solution transferable to us in Delaware?''
    We are not the only nation grappling with doing a Census, 
and we are not the only nation grappling with doing it in a 
more cost-effective way. Who are some other countries that we 
are learning from? What are we learning from them?
    Mr. Thompson. We regularly work with other countries like 
the United Kingdom, Canada, Australia, and share our progress; 
we share our problems. We have an ongoing dialogue about what 
works, what does not work.
    So, for example, Canada has been using the Internet as a 
response option before we have, so we have been working with 
the Statistics Canada people to understand what they have 
learned that is both good and not good in terms of how to 
implement an Internet self-response option. But we do have 
active discussions going on with our fellow countries.
    Senator Carper. Could you give us just maybe one example, a 
clear, easy-to-understand example of something that we have 
learned in this back-and-forth with other nations, maybe the 
ones you mentioned, maybe others, say this is what we learned 
from Canada, this is what we learned from Britain that we are 
going to be doing differently this cycle?
    Mr. Thompson. Well, I think there were two things with 
Canada. One thing was that the Internet can be a very 
successful way to get responses in on a very timely basis, and 
Canada has had great success in using the Internet as a primary 
response option.
    The other thing we have learned from Canada is that if you 
are not cautious about how you word the equivalent of the 
American Community Survey and the messaging on that, you can 
lose a lot of data quality. At the last minute Canada had to 
make their survey voluntary in 2011, and they did not have much 
time to work on it, and they lost a lot of data quality and 
were not able to publish a lot of the data from their 
equivalent to the American Community Survey. So those are two 
examples of some things that we have learned.
    Senator Carper. Good. Thanks.
    Thanks, Mr. Chairman.
    Senator Lankford. One other thing I would just ask you to 
submit for the record is the controls and how you are going to 
handle staff for 2020, background checks, citizenship status, 
and such for actual Census takers and Census staff, so when 
that is settled and resolved. Do you have a good idea of when 
you are going to set those parameters?
    Mr. Thompson. Right now, our intention is to use similar 
processes in terms of fingerprinting and validation as we did 
before. However, there is still an active class action suit on 
that issue, and so we are awaiting the outcome of that, and I 
do not have an estimate of when that suit may be resolved.
    Senator Lankford. OK. So the assumption is to use basically 
the same standards as the last time, pending this class action 
suit.
    Mr. Thompson. Yes.
    Senator Lankford. OK. Then we will follow-up from there.
    Going back to the American Community Survey again, is there 
anything on the American Community Survey that is not publicly 
available from other places or from other survey teams? I 
understand our every-10-year Census, that one is 
constitutionally mandated. The American Community Survey is 
not. And so what I am looking for are some of the efficiencies 
that are there of cost. What data can we buy at less 
expensive--you are saying if it is $97 a person for a main 
Census but you think it is more for the American Community 
Survey, is there a company we can buy this same information 
from for $50 apiece and save us half the money? That is what I 
want to try to figure out and to see do we need to gather this 
data this way from Census, or is there a more efficient way to 
do that? And I would be interested to know if GAO has examined 
that in the past.
    So, Mr. Thompson, if you want to just be able to address 
just some of the other resources that are out there that are 
publicly available that may already be there. I am sure you are 
talking about that with your questions, and then other places 
and efficiencies.
    Mr. Thompson. So, Senator, we are looking right now as we 
speak at what resources are available to supplement or remove 
some of the questions on the American Community Survey and 
getting them from other places. I must say, though, having run 
a business myself, my efforts in running the business were, 
trying to keep the business in business and to grow the 
business. And so I was not motivated to form a comprehensive 
data series for the entire United States. I was looking at 
where my data was most important to my business.
    Senator Lankford. Right.
    Mr. Thompson. And so that is why it would be very difficult 
to get from the business community a comprehensive data set for 
all parts of the United States.
    That being said, we are certainly looking to use existing 
information in lieu of asking people that information.
    Senator Lankford. Right. So my question is: There are 
businesses that do this kind of investigation all the time, 
this kind of research. You are right, they are not trying to 
comprehensively touch on every single area, but if we are able 
to say to them, ``We want to buy your data. It has to include 
this,'' they already have half the data, they could gather the 
other half and probably half the cost for us as well. I am 
trying to figure out how do we get below $100 apiece to be able 
to ask a set of questions when everyone who does surveys--and 
maybe I am missing it, but I do not know of another survey that 
costs as much as that one does to be able to do it. I 
understand the unique parameters that we have with every 
household, every street. That is different. It is like U.S. 
Mail has a different set of cost parameters than FedEx does 
because it is every house, every day, every street. I get that. 
But I am trying to find are there other ways. Has GAO examined 
something like that in the past?
    Mr. Goldenkoff. Not a very detailed analysis. We have not 
gone question by question. What we have looked at is the 
availability of some of the data in other Federal surveys and 
other Federal data, and it really varies. In some cases there 
really is no substitute for the ACS data because it really gets 
data down to a very low level of geography, and sometimes that 
is needed for some of the requirements. Some of it goes back to 
statute. Some statutes require that the data come from the 
Census. In other cases, it is just the best data available for 
that need, and so it is more for administrative purposes.
    So this is something that the Census Bureau has to look at, 
go item by item and see what are the alternatives and what is 
the cost-benefit, again, balancing that cost-accuracy tradeoff.
    Senator Lankford. Right. But has GAO taken a look before 
about private entities doing this if we paid them--again, if we 
are at $100 a survey, are there entities that would gather the 
same amount of data----
    Mr. Goldenkoff. No, we have not----
    Senator Lankford [continuing]. For less cost? Again, we 
have a difference between the American Community Survey, the 
Census between the Census, and the actual Census. We have a 
constitutional mandate for the actual Census every 10 years. 
This one is supplementary data that helps us, but it is not the 
same constitutional mandate, does not have to be done by a 
government entity, but is useful to us.
    Mr. Goldenkoff. We have not looked into that, no.
    Senator Lankford. OK. Well, that may be one that we try to 
follow-up on in the days ahead and try to find the most 
efficient way to be able to gather this so that we have good 
data and information, but we do not lose in cost.
    Senator Carper, any additional questions?
    Senator Carper. Just one. I do not recall whether you are 
married or not, Director Thompson, but every now and then our 
spouses have a way of saying to us, ``Well, whatever plans we 
had for the rest of our career, you can forget about that.'' 
Every now and then, my wife--I do not know if it is tongue in 
cheek or not, but she will say, ``Somewhere down the line here, 
why don't we just put everything we have in storage and just go 
and travel around the world.'' And I say, ``OK. When do we have 
to do that?'' And so far she keeps letting me off the hook.
    But let us say you were married--maybe you are--and you get 
into 2016 and your spouse says, ``Everything we have, let us 
just put everything in storage and let us spend the next 
several years just traveling around the world.'' And, you are 
serving this 5-year term. We are grateful that you are doing 
it. But in order to maintain peace in the valley with your 
spouse, you declined the President's offer for another 5-year 
term. And so then we have to figure out how do we get a smooth 
handoff, how do we get a smooth handoff carrying up to the next 
Census.
    One of the reasons we have this 5-year term in law is to 
try to ensure we have a better transition. But there is nothing 
to ensure that you will want to stay beyond this at this time. 
Hopefully you will. But what else are we doing to ensure a 
smooth handoff of the Census? I think this is premature, but 
what else are we doing and should we be doing to make sure 
that, whether you stay or do not, we have that smooth handoff?
    Mr. Thompson. Well, thank you, Senator. So there are some 
things that are certain, and one is that my term ends December 
31, 2016, the term I am currently in. Then there will be 
another term, which I could be reappointed for or not. But 
there are a lot of things that are going to happen between now 
and then, including a Presidential election, that I have no 
control over.
    So what I am focusing on is putting in place the best plan 
for implementing the 2020 Census that I can by the end of my 
term so that the Census Bureau has good guidance. That is 
something I can control.
    I also need to say that the Department of Commerce is being 
very supportive of me in that effort. So that is what I am 
doing.
    Senator Carper. During an earlier administration, I felt we 
were at a point where we were really struggling with the 
Census. We reached a point where I felt that there was the kind 
of engagement from the Secretary of Commerce that we needed. 
And you mentioned a couple of times the involvement of the 
Secretary and the Secretary's senior staff. Would you just 
characterize that again? Because I think it is really 
important.
    Mr. Thompson. Thank you. The Census Bureau has had 
tremendous support from the Office of the Under Secretary for 
Economic Affairs, they oversee the Census Bureau and the Bureau 
of Economic Analysis. We have had tremendous support from the 
Office of the Secretary and from the Secretary herself. I met 
with the Secretary periodically, and she wants to make sure 
that we are on track to do a good Census and how she can help 
me.
    And we have had tremendous support from the Office of 
Management and Budget, which has understood our needs and has 
been very helpful in defining those.
    So the Administration is behind conducting an accurate 
Census for 2020 and supporting the Bureau in moving forward.
    Senator Carper. Good.
    Mr. Chairman, it has been an encouraging hearing and an 
important one, and I am sorry all of our colleagues could not 
be here. On the question of the budget issue that we have 
raised and talked a little bit about for 2016, our Chairman is 
on the Budget Committee, and he has been out there 
participating, as you probably know, in a conference on the 
budget. So he is probably in there wrestling and trying to make 
sure we get this bump-up so that we will get a good Census in 
2020.
    Senator Lankford. While we are in here trying to make sure 
that we are protected from a $3 billion error.
    Senator Carper. There you go.
    Senator Lankford. Back and forth again. So thank you all 
for being here and what you bring to this. There is a 
tremendous gain for the entire Nation. It is a constitutionally 
mandated operation, and we are grateful for the service, and 
hopefully we can continue to work on efficiencies and bring 
down the cost per person and try to examine some efficiencies 
out of the box in the days ahead. So thanks. Good hunting on a 
lot of the testing and evaluation and things that are happening 
to us in the days ahead.
    The hearing record will remain open for 15 days until May 
the 5 at 5 p.m. for the submission of statements and questions 
for the record. Thank you all for being here.
    Senator Carper. Mr. Chairman.
    Senator Lankford. Yes, sir.
    Senator Carper. I want to again mention the name of 
Lawrence Buckner who was killed in the line of duty, I think 
about 11 days ago.
    Senator Lankford. Right.
    Senator Carper. I know his name was mentioned earlier.
    Senator Lankford. Yes, in the opening.
    Senator Carper. You and others extended your condolences to 
his family, but sometimes we talk about nameless, faceless 
bureaucrats in the Federal Government, and these are people, a 
lot of them, who work hard, work long hours, in some cases at 
great risk to themselves, and we remember him and thank him and 
other of his colleagues who do this dangerous work. Thank you.
    Senator Lankford. Entirely appropriate. Thank you again for 
the way you are taking care of them and their families.
    Thank you. This hearing is adjourned.
    [Whereupon, at 4:33 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              



  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                 [all]
</pre></body></html>
